<html>
<title> - [H.A.S.C. No. 112-82]ARMY ACQUISITION AND MODERNIZATION PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                                     

                         [H.A.S.C. No. 112-82]

 
              ARMY ACQUISITION AND MODERNIZATION PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 26, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
71-453                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>  
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 ROSCOE G. BARTLETT, Maryland, Chairman
FRANK A. LoBIONDO, New Jersey        SILVESTRE REYES, Texas
JOHN C. FLEMING, M.D., Louisiana     MIKE McINTYRE, North Carolina
TOM ROONEY, Florida                  JIM COOPER, Tennessee
TODD RUSSELL PLATTS, Pennsylvania    GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             NIKI TSONGAS, Massachusetts
JON RUNYAN, New Jersey               LARRY KISSELL, North Carolina
MARTHA ROBY, Alabama                 MARTIN HEINRICH, New Mexico
WALTER B. JONES, North Carolina      BILL OWENS, New York
W. TODD AKIN, Missouri               JOHN R. GARAMENDI, California
JOE WILSON, South Carolina           MARK S. CRITZ, Pennsylvania
MICHAEL TURNER, Ohio                 KATHLEEN C. HOCHUL, New York
BILL SHUSTER, Pennsylvania
DOUG LAMBORN, Colorado
                 John Wason, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, October 26, 2011, Army Acquisition and Modernization 
  Programs.......................................................     1

Appendix:

Wednesday, October 26, 2011......................................    27
                              ----------                              

                      WEDNESDAY, OCTOBER 26, 2011
              ARMY ACQUISITION AND MODERNIZATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2

                               WITNESSES

Lennox, LTG Robert P., USA, Deputy Chief of Staff of the Army, G-
  8..............................................................     4
Martin, Belva M., Director, Acquisition and Sourcing Management, 
  U.S. Government Accountability Office..........................     6
Phillips, LTG William N., USA, Military Deputy to the Assistant 
  Secretary of the Army (Acquisition, Logistics and Technology)..     5

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    31
    Lennox, LTG Robert P., joint with LTG William N. Phillips....    37
    Martin, Belva M..............................................    50
    Reyes, Hon. Silvestre........................................    34

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................    71

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................    75
    Mr. Owens....................................................    82
    Mrs. Roby....................................................    79
              ARMY ACQUISITION AND MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                       Washington, DC, Wednesday, October 26, 2011.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Roscoe G. 
Bartlett (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE 
FROM MARYLAND, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Bartlett. Thank you for joining us. Today the Tactical 
Air and Land Force Subcommittee meets to receive an update on 
Army acquisition and modernization programs.
    I would like to thank our witnesses for being here today. 
They are Lieutenant General Robert Lennox, Deputy Chief of 
Staff of the Army, G-8; Lieutenant General William Phillips, 
Military Deputy to the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology; and Ms. Belva Martin, 
Government Accountability Office, Director of Acquisition and 
Sourcing Team.
    Since the subcommittee last received testimony from Army 
leaders, there have been many programmatic changes to major 
Army programs. In addition to what I have stated before, major 
reductions in the Federal budget need to be a major element of 
correcting the Federal budget deficit. The Department of 
Defense must share in a fair and balanced way in these 
reductions. That process is already taking place under the 
Budget Control Act of 2011, with nearly $500 billion in cuts 
planned for DOD [Department of Defense] over the next 10 years. 
Further cuts beyond the $400-$500 billion are possible, up to 
approximately one trillion dollars total over 10 years, under 
what Secretary Panetta has called the doomsday mechanism 
sequestration provision of the Budget Control Act.
    It remains unclear how DOD would apportion funding 
reductions and how funding reductions will impact Army 
modernization programs.
    The purpose of today's hearing is to get an update from the 
witnesses as to what changes may have to be made in their 
proposed acquisition programs in fiscal year 2012. We would 
like to hear from our witnesses what their major issues and 
concerns are. What should our Members be most aware of as the 
fiscal year 2012 request is finalized in Congress?
    Finally, we would like to know the views of our witnesses 
on what potential impacts to Army capabilities could occur, 
particularly in light of the possible reductions in the Army's 
procurement and R&D [Research and Development] budgets.
    A couple of examples of our concerns are what we understand 
to be the Army's top two modernization priorities, the Ground 
Combat Vehicle [GCV] and the network.
    The GCV program received Milestone A approval, entry into 
the technology development phase, in August of 2011. Although 
the program is currently under a General Accounting Office 
[GAO] protest, we do expect to learn more about the GCV 
acquisition strategy and requirement stemming from the most 
recent Office of the Secretary of Defense [OSD] acquisition 
decision memorandum. And for the network, we would like to 
learn more about how the recent Network Integration Exercises 
at Fort Bliss and White Sands Missile Range are helping the 
Army make informed budget decisions.
    Most recently, Congress was informed that the Ground Mobile 
Radio [GMR], part of the Joint Tactical Radio System [JTRS] and 
the network, was terminated as a result of the Nunn-McCurdy 
process.
    I thank all of you for your service to our country and for 
being here today, and I look forward to your testimony.
    Now to my very good friend from Texas, the ranking member, 
Mr. Reyes.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 31.]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
  RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Reyes. Thank you, Mr. Chairman, and let me add my 
welcome to all of the guests here this afternoon.
    Today's hearing on Army modernization comes at a critical 
juncture for the future of the U.S. Army. On the one hand, with 
the end of war in Iraq, the Army may finally have a chance to 
improve dwell time for troops and their families and also to 
repair worn-out equipment.
    At the same time, the war in Afghanistan continues, and the 
Army still has to be prepared to deploy troops to Korea and 
other potential flash points.
    And finally, laid on top of those demands, the Army is 
conducting a planned drawdown in the size of the Army from 
567,000 Active-Duty troops to around 520,000.
    Balancing those three factors will no doubt, as the 
chairman pointed out, be difficult.
    When one turns to the issue of modernizing the Army's 
equipment, I think it is important to remember what has been 
accomplished over the past 10 years.
    First, the Army has fielded hundreds of UAVs [unmanned 
aerial vehicles] and other ISR [intelligence, surveillance, and 
reconnaissance] platforms that give today's soldiers far more 
capability to find the enemy and to understand their 
intentions.
    Second, the Army has upgraded almost its entire vehicle 
fleet from Abrams tanks to trucks to Strykers to MRAPs [Mine 
Resistant Ambush Protected vehicles].
    Third, the Army now provides personal soldier equipment 
vastly improved over what the troops were issued in 2001, 
including better body armor and personal weapons.
    Fourth, the Army continues to invest in aviation 
capability, increasing both the quantity and the quality of 
helicopters in its force.
    Fifth, the Army is working hard to get more network 
communications equipment in the field, including the large-
scale ``Network Integration Exercises'' at Fort Bliss in my 
district.
    Sixth, so while some programs didn't work out as planned, a 
lot of very smart investments were made and today's Army is 
better equipped than ever before.
    However, the Army must continue to modernize in critical 
areas, to stay ahead and to plan for future threats. I felt 
that the modernization plan presented the Army at our hearing 
in April was a solid one, integrated plan for moving the Army 
forward on its top priorities which were pushing the network 
down to the soldiers, continuing to expand aviation capability, 
and third, investing in programs for the future.
    However, since that hearing, Congress passed the Budget 
Control Act that will cut $450 billion from DOD's budget over 
the next 10 years. Additional cuts may come from the 
supercommittee and certainly are a concern, since they may be 
possible.
    How the Army plans to deal with those reductions in fiscal 
year 2012 is a major issue, I believe, for today's hearing. 
While I am confident the Army will do its best to adapt, I am 
concerned that disproportional cuts to modernization may be 
doing real damage to the future of our Army.
    Too often discussions about, quote unquote, what the Army 
needs are focused exclusively on today's fight, even though 
Army leaders have to also focus on being ready for whatever the 
next challenge or conflict may be.
    The Ground Combat Vehicle is one example. With the Army 
planning only incremental upgrades to Abrams and Bradley 
fighting vehicles in the future, it is clear that the Army must 
start investing now in the vehicle it will need in the 2020s. 
Despite the need, the GCV has already been delayed for months 
by contract delays and protests. If it does not move forward 
soon, then the Army won't have any new combat vehicles in 
development.
    The Joint Air-to-Ground Missile, or JAGM, is another 
example. While Hellfire missiles are doing a great job today, 
in the future the Army will need a more capable missile to 
defeat advanced countermeasures from longer ranges. If it is 
terminated, as some press reports have suggested, then the 
future Army won't have the best missiles available and the 
Nation might lose critical missile research and development 
capability.
    Overall, I am concerned that the Army's investments in 
critical future capabilities could bear the brunt of reductions 
in the Army's budget.
    Having said that, Mr. Chairman, I look forward to hearing 
from our panel about the future of those programs and other 
concerns that may be on their minds. And with that, I yield 
back to you, Mr. Chairman.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 34.]
    Mr. Bartlett. Thank you very much. We will proceed now with 
the panel's testimony and then go into questions. Without 
objection, all witnesses' prepared statements will be included 
in the hearing record.
    General Lennox, please proceed with your opening remarks 
and you will be followed by General Phillips and Ms. Martin. 
Thank you.

 STATEMENT OF LTG ROBERT P. LENNOX, USA, DEPUTY CHIEF OF STAFF 
                        OF THE ARMY, G-8

    General Lennox. Good afternoon Chairman Bartlett, 
Congressman Reyes, and members of the committee.
    Thank you for the opportunity to testify on Army 
acquisition and modernization. We will be providing the 
committee with an update on our Army's Affordable Modernization 
Strategy, its processes, and the changes in key programs since 
our last meeting in the spring.
    On behalf of Secretary McHugh and General Odierno, I would 
like to take this opportunity to thank the members of this 
committee for your steadfast support and shared commitment in 
this endeavor to provide the more than 1 million men and women 
in our Army with world-class weapon systems and equipment to 
ensure mission success in combat.
    The Army's equipment modernization goal is to develop and 
field a versatile and affordable mix of equipment to allow 
soldiers and units to succeed across a spectrum of conflict 
both today and tomorrow, and to maintain our decisive advantage 
over any enemy that we face.
    Our first priority is to win today's fight. We currently 
have over 70,000 soldiers in Afghanistan and about 50,000 
soldiers still serving in Iraq. And we must not forget them as 
they continue to serve them in harm's way, and I know this 
panel feels the same way.
    Our second priority is to prepare for the future. To do 
this, our equipment modernization strategy provides a balanced 
approach and features really three aspects.
    The first is we look at our portfolios in an integrated way 
trying to balance requirements, resources, and the acquisition 
process. And we have very consistent reviews of those 
portfolios.
    Secondly, we are focusing on incremental modernization. We 
are trying to deliver improved capabilities as technologies 
mature, resources are available, and necessity dictates.
    And third, we feel that in an ARFORGEN [Army Force 
Generation] matter, and that is really trying to match 
equipment with the mission that the soldiers are going to 
deploy on. So we will match equipment that they need, 
modernized for the mission that they have got.
    We look forward to discussing our priority modernization 
programs which include the network, Ground Combat Vehicle, 
Joint Light Tactical Vehicle [JLTV], the Paladin program, Kiowa 
Warrior, and others.
    We recognize that we must shape the Army of 2020 with the 
understanding of our national security obligations and the 
current fiscal crisis. We will constantly reform how we do 
business to remain good stewards of the resources that are 
provided to us, and we recognize that we may have a smaller 
Army in the future, but that smaller Army must be trained and 
equipped to defeat any adversary.
    Mr. Chairman, members of the committee, I thank you again 
for your steadfast and generous support of the outstanding men 
and women of the United States Army, of Army civilians and 
their families, and we look forward to your questions.
    [The joint prepared statement of General Lennox and General 
Phillips can be found in the Appendix on page 37.]
    Mr. Bartlett. Thank you very much. General Phillips.

 STATEMENT OF LTG WILLIAM N. PHILLIPS, USA, MILITARY DEPUTY TO 
THE ASSISTANT SECRETARY OF THE ARMY (ACQUISITION, LOGISTICS AND 
                          TECHNOLOGY)

    General Phillips. Chairman Bartlett, Ranking Member Reyes 
and distinguished members of this committee, thank you for the 
opportunity to appear before you and to discuss Army 
acquisition modernization and our acquisition strategies. I am 
really proud and honored to be here with my battle buddy, 
Lieutenant General Bob Lennox, and Ms. Martin from the GAO 
[Government Accountability Office].
    Throughout our Affordable Modernization Strategy we are 
dedicated to meeting the needs of our soldiers around the world 
and around the clock.
    We thank you for your wisdom and your strong support for 
our soldiers and their families. The Army acquisition community 
is committed to delivering enhanced capabilities to our 
soldiers in a timely and affordable manner. The Army has 
undertaken a number of efficiencies, initiatives, including 
streamlining the acquisition process to focus on collaboration 
among stakeholders early and upfront in the process, to 
properly align requirements and resources with our acquisition 
strategy, and we are closely examining technological maturity 
to achieve realistic program goals.
    We are encouraging competition and innovative contracting 
strategies in order to control costs. We are a full partner in 
the Department of Defense Better Buying Initiatives. In fact, 
we are now and we have been for the past year changing the 
paradigm within Army acquisition and within the thought process 
of Army acquisition leaders as it relates to cost, schedule, 
and performance. We are aggressively challenging requirements 
and seeking tradeoffs that achieve greater affordability and 
executability of programs. We cannot afford any requirement at 
any cost.
    We are implementing smarter test and evaluation strategies 
to get real-time soldier feedback, leveraging the Network 
Integration Exercise at White Sands Missile Range in Fort 
Bliss, and certainly we invite all of you, the members of this 
committee, to visit us out at Fort Bliss and White Sands 
Missile Range.
    We are codifying our rapid acquisition procedures and 
introducing testing and prototyping earlier in the development 
cycle as other ways to reduce costs and risks, and to achieve 
more agile acquisition strategies. We must have realistic cost 
estimating from the very beginning of a program that provides 
insights into individual requirements. We take our fiduciary 
responsibilities to Congress and the American people seriously, 
and we will take full advantage of every dollar that you 
provide us.
    Our progress and successes are detailed in the written 
statement, and I won't go into them. General Lennox just 
mentioned some of them. MRAP M-ATV [Mine Resistant Ambush 
Protected All-Terrain Vehicle] and Stryker Double V Hull are 
those that are serving today in Afghanistan and saving lives.
    There are others like counter improvised explosive devices 
[IED]. We do continue our efforts to improve soldier protection 
in body armor and vehicles, to bring the power of the network 
to the individual soldier, and to lighten the load of our 
soldiers as well.
    Our strategy to meet these needs include conducting 
capability portfolio reviews, and as a result of the Weapon 
Systems Acquisition Reform Act, we have also implemented 
configuration steering boards [CSB], of which last year the 
Army completed 100 percent of all of the required CSBs mandated 
by statute.
    Mr. Chairman, the Army is committed to improving our 
acquisition processes and delivering affordable programs that 
meet the needs of our soldiers today and tomorrow. We cannot 
fail. Our soldiers trust us that we will provide them the very 
best equipment so that they can succeed on the field of battle 
and that one day they can return home safely to their families 
and their friends. We cannot betray their trust.
    In executing our responsibilities we will ensure that the 
Army remains the Nation's force for decisive action.
    Mr. Chairman and distinguished members of this 
subcommittee, your deep and abiding commitment to our men and 
women in uniform is widely recognized throughout our ranks. We 
thank you for your continued support that ensures mission 
success and the safe return home of our soldiers.
    I look forward to your questions, Mr. Chairman.
    [The joint prepared statement of General Phillips and 
General Lennox can be found in the Appendix on page 37.]
    Mr. Bartlett. Thank you very much. Ms. Martin.

    STATEMENT OF BELVA M. MARTIN, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Martin. Chairman Bartlett, Ranking Member Reyes and 
members of the subcommittee, I am pleased to be here today to 
discuss the Army recent modernization efforts. I will summarize 
my prepared statement.
    As background, the Army has faced some struggles in its 
modernization program since terminating their Future Combat 
System, known as FCS, in June of 2009.
    I would now like to highlight four key areas.
    First, when GAO testified before this subcommittee in 
March, we raised issues about GCV in the areas of urgency of 
the need, cost and affordability, analysis of alternatives to 
meet the need, and plausibility of delivering a production 
vehicle in 7 years. While DOD and the Army have increased their 
oversight of the program, these questions are still relevant, 
and it is expected that they will be fully explored during the 
current technology development phase. The Army has a challenge 
ahead to identify a feasible and cost-effective solution to 
meet its needs.
    Second, during the recently completed technology 
development phase, the Army and the Marine Corps learned that 
some of their original projected requirements for JLTV were not 
achievable. The services are now planning to have industry 
build prototypes for testing before a production decision to 
save time and money. However, there is a risk with this 
strategy. Even with demonstrated prototypes, skipping the 
detailed design and development testing process could result in 
the services discovering late that the vehicles are still not 
mature.
    In a related effort, the Army is modernizing portions of 
its Up-Armored Humvees [High Mobility Multipurpose Wheeled 
Vehicle] to improve blast protection and extend its service 
life by 15 years, among other requirements.
    Third, the Army has moved away from its plan for a single 
network program and is now using an incremental approach where 
it builds on capabilities already in place and is getting 
soldier feedback, as you mentioned, White Sands and Fort Bliss. 
This is a positive development. However, to avoid potentially 
wasting resources by developing a number of stovepipe 
capabilities that may not work together, it is important for 
the Army to define requirements for the network.
    One network program that has been in development for over a 
decade was recently terminated, and you referred to the Ground 
Mobile Radio Program, and it was expected to be a key component 
of the network. The Army still has a need for software defined 
radios, and they expect industry to provide capability to meet 
some of this need through a competitive market but has not yet 
defined an acquisition strategy.
    Finally, as we have discussed, there is still much to be 
determined on GCV, JLTV, and the network. For example, what is 
the best option for Ground Combat Vehicles? Is it a new vehicle 
or modification to a current one? Can the services afford both 
the JLTV and the Humvee Recap effort?
    The Army has gotten positive results from its capability 
portfolio reviews, and, as General Lennox mentioned, they are 
able to look beyond the individual program to identify overlaps 
and set priorities. On both JLTV and GCVs, as the requirements 
have been examined more closely, the Army is finding that it 
can live with less in terms of capabilities, and has been able 
to reduce costs. It is important that these reviews continue in 
the future and that the Army considers a broad range of 
alternatives.
    Thank you, Mr. Chairman. This concludes my short statement. 
I will be happy to answer questions from you or members of the 
subcommittee.
    [The prepared statement of Ms. Martin can be found in the 
Appendix on page 50.]
    Mr. Bartlett. Thank you all very much for your testimony. 
As is my usual practice I will reserve my questions until last, 
hoping they will have been asked. So I now turn to my ranking 
member, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. Let me start with the 
Ground Combat Vehicle, which is the Army's number one priority, 
vehicle development program.
    And now we know that in an unusual move, the Army has 
awarded two contracts to begin design work on the vehicle. But 
we are also told it is also evaluating current off-the-shelf 
options, including a modified M2 Bradley and an Israeli-
designed personnel carrier.
    So three questions that I have. What is the expected cost 
of these off-the-shelf vehicle evaluations? When will the Army 
have results that it can share with the committee? And third, 
did the Army want to do these evaluations or were they forced 
on the Army by OSD acquisition officials?
    General Lennox. Congressman Reyes, if I could take one or 
two of those parts, and then ask General Phillips to help on 
the costing information.
    We in conjunction with OSD came up with this strategy and I 
think it is a very good one. As you know, the Ground Combat 
Vehicle is the vehicle that carries our infantry soldiers, the 
ones closest to combat. It is going to be the one that has to 
provide the requisite protection, and we have learned over the 
last 10 years that protection--every vehicle we make, we end up 
adding more to it to increase protection for soldiers. And this 
will be the first vehicle that will be built from the ground up 
to do that protection.
    We think we have a very good path that looks at both 
developmental systems and non-developmental systems over the 
next 2 years, approximately 2 years. And I think by this time 
next year, we ought to have a good idea of looking at 
alternatives and costing them to see what path might be the 
best and, at the same time we are doing that, looking at 
developmental systems and non-developmental systems, we are 
going to be looking at requirements.
    As Ms. Martin said, do we have them right, are they 
affordable, how much extra power or how much protection is 
enough, and all of these things come with costs, so do we have 
this right or not. And we will be reviewing that and we think 
we have a very good approach for getting that protection that 
we need for our soldiers.
    General Phillips. Sir, I would add a couple of things. 
Through all the costing that Ms. Martin actually defined very 
well, that we went through on GCV, we found out that we think 
we could bring this vehicle in for about 9-10.5 million and 
that is actually what was inside the RFP [request for proposal] 
and what we are holding the two industry partners to the 
standard. We don't yet know what the non-developmental items 
will cost yet. That's why we are going to go out and take a 
more deeper look at the vehicles that you just described, the 
stretch Bradley and others, and potentially a Stryker that we 
will take out to the desert.
    Most importantly, we will take those vehicles out to White 
Sands, and we will be able to put them in the hands of soldiers 
and let them crawl around on them, use them in an operationally 
relevant environment so we can learn as much from them as 
possible.
    Sir, I will make one other statement. We were not forced to 
do this in any way. It was a full partnership with OSD and the 
Army to go down this path.
    And one other statement, sir, real quick. GCV is incredibly 
important to the Army. After 10 years of war, we know that we 
need an advanced infantry fighting vehicle to better protect 
our soldiers, and this will be the first vehicle built from the 
ground up to operate in an IED environment. When we look at 
attrition of vehicles down range, the Bradley is the second-
most attrited vehicle. Now, we haven't had them in combat since 
I believe 2007, 2008. So early up in the conflict, they were 
getting attrited because of combat losses. We need a vehicle 
that can withstand the rigor of combat full spectrum. GCV we 
think is that vehicle.
    Mr. Reyes. So again, building one from the ground up and 
also testing, for instance, the Israeli vehicle and also the 
stretch Bradley, as it is commonly called, moving on parallel 
paths, at what point do you think that we are going to be able 
to make a decision? Is that within the next 12 months?
    General Phillips. Sir, probably in about the next 18 
months. It will be 24 months to Milestone B, through the 
technology development phase. So in about 18 months, we will 
have better informed ourselves of the requirements, what type 
of NDI [non-developmental item] solutions might be out there. 
And that might inform us is there another vehicle out there 
with an NDI-like solution that we could use. So, sir, in about 
18 to 24 months, we will be able to come back to the committee 
and let you know where we stand on that piece, sir.
    Mr. Reyes. Are there any concerns or reservations 
budgetwise in being able to keep this on track? I know it is 
Army's number one priority, but all of us are very much 
concerned as to what comes out of this in the next 30 days or 
so.
    General Phillips. Sir, I will let General Lennox jump on 
this. But GCV is fully funded throughout--beyond the budget 
years and through the POM [program objective memorandum] years 
as well, so we are fully confident that we can execute the 
strategy, the acquisition strategy, and that we will work with 
our partners to able to make sure that it remains affordable.
    What is critical getting to Milestone B is that we want the 
best information possible as we execute Milestone B in 24 
months. So we might refine the requirements and do more cost-
informed trades as we go down the path. That is why the NDI 
solutions and taking the vehicles out and putting them out in 
the desert and putting them in the hands of soldiers will 
inform us better to make those potential trades.
    General Lennox. Sir, you asked if we are worried about 
funding and the answer is yes. Clearly we don't know the future 
for 2012 and out. We have prioritized this in the Army's 
funding, as you mentioned, but there is a lot of unknowns ahead 
for all of us, I think.
    Mr. Reyes. Thank you.
    I will reserve my other questions for later, Mr. Chairman. 
I yield back.
    Mr. Bartlett. Thank you. Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman, and thank you all for 
your testimony.
    You kind of answered in a roundabout way my first question 
about there not being procurement in fiscal year 2012 for the 
Humvee, but as you talk about up-armoring these vehicles, what 
is the life expectancy of the vehicle and are you actually 
wearing on it more by up-armoring it?
    General Lennox. I think you have hit upon an important 
tradeoff for us. We are doing three things with our Light 
Tactical Vehicles. We are doing a recap today of the existing 
vehicles that are coming out of combat, and we are worried 
about the weight of those vehicles carrying armor. They are at 
about their capacity. So that is a big concern.
    The second thing we are doing is we are looking at 
potential of what you can do with this fleet of 150,000 Humvees 
we have today in a program we call the MECV, and I hate to 
confuse everybody with acronyms. It is the Modernized Expanded 
Capability Vehicle, and we are experimenting over the next 
couple of years to see if there is something you can do with 
this platform that could bring new life to this vehicle. So 
that is a second thing that we are doing.
    And the third is we are looking at the Joint Light Tactical 
Vehicle, and we just recently worked very, very hard with the 
Marine Corps to come to reasonable, affordable requirements of 
this vehicle. And our strategy is to do that side by side with 
the MECV, the JLTV and the MECV, in about 2 to 3 years, after 
looking at what industry can do, make a decision about the way 
forward informed by what industry can provide us.
    Mr. Runyan. So in that decision process, are you--is your 
readiness at a disadvantage there? Are you going to have an 
influx of MRAPs or whatever in there also?
    General Lennox. In the interim, sir, you are exactly right. 
We will be leveraging the MRAPs and the MRAP ATVs. We have 
about 25,000 of those, compared to 150,000 Light Tactical 
Vehicles. So it is not enough with MRAPs and MRAP ATVs but it 
is a sufficient mitigator for soldiers in combat today. That is 
what we are using in combat.
    Mr. Runyan. Next question I had was more--obviously, the 
Abrams is going to be in service for, what, another 34 years, 
and we kind of fell short on updating that in its full 
efficiency. How do you guys look forward to actually making 
that feasible because the numbers I am looking at, it saves 
about a billion and a half in efficiencies over the lifespan.
    General Lennox. Congressman, I think that is a big concern. 
How do you modernize all of your combat vehicles while you are 
trying to transform and get a new combat vehicle, the Ground 
Combat Vehicle? How do you improve the ones you have to keep 
them relevant? And then we have another grouping in there that 
simply have to be replaced, our M113s.
    So what we have tried to do is prioritize, and because the 
Abrams is still the most capable main battle tank in the world, 
we have prioritized that lower than some of the other things. 
And what we approach it with is to do an engineering change 
proposal and get at some of the space, weight, and power issues 
now, and then look for a longer-term improvement that gets at 
some of the concerns that you raise--energy usage, better 
capabilities for the future.
    Mr. Runyan. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. Bartlett. Thank you very much. Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. I welcome our panel 
that is here today for a very important conversation.
    And I want to follow up a little bit, kind of in the same 
neighborhood, and maybe rephrasing the question a little bit 
about how we evaluate our needs. And we know that we have lots 
of equipment left over that we are currently using that will be 
left over. We know that we are engaged in active combat in 
Afghanistan, pulling out of Iraq.
    How much do you feel constrained to base your decisions 
upon the equipment we have now versus what you think we might 
need as we anticipate where the next challenge may be? Are we 
making decisions based upon what we have and kind of thinking 
maybe the next situation will be similar? Or would we really 
rather break with what we have and go to new systems and trying 
to figure out how to do that? I know that is somewhat a 
complicated question, and I just wonder what your thoughts are 
towards how you see this conflict.
    General Lennox. You have hit the nail on the head in terms 
of the challenges that we face when you do modernization. And 
one of the officers that works for me said it better than 
anybody else. We have kind of an unknown future. We don't know 
what the threats will be that the Nation faces, but you have to 
be ready for those both today and tomorrow. He likens it to 
driving down a steep cliff in the dark and you can only see out 
as far as your headlights. And I think that is a good analogy.
    So we try to do incremental modernization so that you make 
sure that what you have today is capable of fighting today, and 
you make the incremental improvements that you can. But in 
several cases, we are trying for transformation in our 
technologies. An example is the network, our number one 
priority, to get that down to the soldier and empower a soldier 
today with digital information, with data, with voice 
capabilities. We think that will be a transformation.
    And additionally, the Ground Combat Vehicle. We think that 
vehicle where we have the most soldiers right in the middle of 
facing combat, we think we need to transform that capability as 
well.
    So those are really our capabilities that are focusing on 
transformation. And by and large, the rest of them are focusing 
on incremental improvements in this period of unknown threat in 
the future.
    Did that answer your question, sir?
    Mr. Kissell. Yes, because obviously there is not a right or 
wrong answer here. It is more of where our thoughts are going 
and how we look at balancing this out. And I was just looking 
for insight to that. And I thank you for that.
    Someone mentioned to me--and I welcome anybody answering 
this. Someone mentioned to me that we are cutting back on our 
R&D, that there is so many more ideas we have out there that 
could be useful, but we are cutting back on them because we 
feel constrained, and maybe in part to keep using what we have 
had. Maybe we don't want to put more resources over to R&D. But 
it was said to me in a way that concerned me, because R&D is 
the lifeblood of--someone mentioned we have got to learn to 
live with less. Well, that living part is what it is all about, 
because that is our soldiers. And we have got to have them 
living with less but we can't--we have got to make sure we are 
giving them what we need.
    So do you have any concerns, any of you guys, in terms of 
R&D; are we cutting back too much, are we missing some things 
that we could utilize by not pursuing R&D.
    General Phillips. Congressman, I will start and ask General 
Lennox to weigh in.
    Up front, we are concerned about the budget and how the 
budget will work its way through, and what that will mean for 
R&D; because as you said, most importantly, work on the 
projects that we want to make sure that we maintain a world-
class Army and our soldiers with the best equipment in the 
world, which is what they have today. And we can't stop 
investing into their future.
    It also has a tremendous impact on small businesses, and I 
meet quite often with small businesses. And the first thing 
they bring up is, what is going to happen with the R&D budget 
and with SBIR [Small Business Innovation Research] programs and 
others that are so critical to the innovative research that is 
ongoing in small businesses today? So as we look at the budget 
it certainly becomes a balance as was just described, a balance 
in how much you have in R&D and how much you have in the rest 
of the program to be able to push Army modernization forward. 
We have to sustain that balance. But we must continue to invest 
at a certain level with our R&D programs.
    Mr. Kissell. I know my time is running out but it is so 
important that--you know, if you look at so many of our systems 
now, like the UAVs; at one point in time that was R&D, and look 
what it means to us now.
    Mr. Chairman, I yield back. Thank you, gentlemen and 
ladies, once again.
    Mr. Bartlett. Thank you. Now, Mr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    Contained in my district is Fort Polk, excellent Army base, 
has the Infantry Brigade Combat Team, 4th Brigade of the 10th 
Mountain Division. Though I served in the Navy, I am told by my 
Army friends, my Marine friends, that your most important tool 
is your rifle. For me in the Navy, it was chow. But for my Army 
and Marine friends, they say it is your rifle. So I want to ask 
about that.
    Can you elaborate on the Army's strategy for procuring a 
new carbine and for improving the current one? I understand 
there is a dual strategy going on with that. Are these 
strategies affordable and do you have adequate funding 
available in fiscal year 2011 and projected in fiscal year 
2012? Will this satisfy the requirements of USASOC [United 
States Army Special Operations Command], and if not, can you 
outline their modernization strategy for procuring the new 
carbine?
    General Phillips. Congressman, I will take the question.
    As you said, we do have a dual strategy to upgrade the M4 
carbine. And I will say up front, the M4 carbine is a 
remarkable weapon. The experience that we have in combat 
operations, we continue to measure that. The requirement for 
the M4 is to have 600 mean rounds between systems abort. And we 
are currently experiencing about 3,500. So it is more than five 
times greater than the current requirement. So the current 
carbine our soldiers are carrying down range is very good.
    But we will continue to upgrade that carbine. We are going 
through a series of upgrades. We have already done over 60, and 
through full and open competition we are going to provide 
additional upgrades for the carbine to enhance it in terms of 
ambidextrous trigger and also a heavier barrel to give it more 
capability to continue to improve.
    And by the way, we are converting them from M4s to M4A1s.
    Now the other piece of the strategy is we are going to go 
out and look and see if there is an individual carbine that is 
better than the M4 is today or the M4A1. So we issued an RFP 
and put that on the street. We had an Industry Day back 30 
March, issued the RFP on 29 June. It closes tomorrow. So we 
will get feedback from industry and they will let us know what 
carbine that they might be producing in the commercial world 
potentially that might fit the bill for a new carbine inside 
the Army. And we are going through various phases to be able to 
determine whether or not industry has a better carbine than the 
current M4A1 is today. And at the end of that process, we will 
do a business case analysis to make sure that we are getting it 
right, because again, our soldiers trust us that we are going 
to give them the best equipment that we can.
    Dr. Fleming. Thank you for that answer.
    Also, I understand that the JTRS Ground Mobile Radio 
Program has been canceled. Why? And what is the Army doing.
    General Phillips. Sir, great question.
    The Ground Mobile Radio went through a rigorous 
comprehensive review between the Army and Office of the 
Secretary of Defense that took about 60 days of intensive 
review of the program itself. Up front I will state that the 
GMR program itself is critical to the Army's network strategy. 
We must have a GMR radio that will run the wideband networking 
waveform and the soldier radio waveform. Absolutely critical.
    So when we say ``termination,'' I will use these words. It 
is a graceful termination. The current contract is with Boeing. 
We are going to let that contract expire in March of 2012, and 
it will terminate on its own. We are not going to renew the 
contract. But the investments that the government has made in 
GMR, which is significant, and what industry has also made, we 
know through market research that there is a number of industry 
partners out there that can deliver the hardware to run those 
two waveforms that I just mentioned.
    So part of our strategy is working with industry, 
leveraging our investment, and we will soon put an RFP on the 
street to ask for the hardware from industry, Ground Mobile 
Radio to run those two waveforms, and that will happen probably 
next month.
    And sir, at the end of the day, this is positive for us. We 
will get this radio quicker. It will be at a lower cost than 
what the formal program would have delivered, and we will get 
it in what we call capability set 13 and 14, so 8 brigades that 
will deploy into combat operations will have a GMR radio 
running those two waveforms. And we will test that out at the 
Network Integration Exercise at White Sands as well.
    So what we will do is put it in the hands of soldiers. And 
when you put something in the hands of soldiers and you let 
them run around with the equipment and use it, you get 
remarkable feedback from our soldiers as to how well that 
hardware will perform. We are excited about the strategy for 
GMR, sir.
    Dr. Fleming. Is that to say that the current Ground Radio 
System we have is only one waveform?
    General Phillips. No, sir. It was designed to run numerous 
waveforms. The original program was a four-channel radio. We 
will go in with a requirement for at least a two-channel radio, 
and industry will come back with their solutions. And we think 
we will get a much lower cost and capable radio that will 
deliver those two waveforms. And also we are working with 
legacy waveforms as well. They will be available at some point 
to run on a GMR radio as well.
    Sir, I hope that answers your question.
    Dr. Fleming. Yes, it does. Thank you, and I yield back.
    Mr. Bartlett. Thank you. Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    Thank you for being here today to testify before us. Going 
back to a couple of questions that Mr. Runyan had asked, one 
regarding the Abrams that is going to be in service I expect 
through 2045, talking about the commercial advances in engine 
compressors result in significant fuel savings. Now, I know 
that you weren't successful in getting the reprogramming to 
initiate this program. But I am curious. You know, this is one 
of the--fuel savings efficiency, extending the life 
maintenance, is an issue that is important to me, along with--
when you talk about fuel savings, the APU [auxiliary power 
unit]. I ask about this, I think, every time that we meet.
    So I am curious about how the Army is going to fund this 
effort to accelerate this critical cost-effective upgrade, and 
I am looking back at the 2008 NDAA [National Defense 
Authorization Act]: Establish an Army product improvement 
program to implement reliability improvements. And I was 
wondering if the Army is going to use this authority to address 
these issues.
    General Lennox. Sir, we didn't think that it fit in this 
case. The requirements are that you have to have payback within 
a year. We think in order to do this, this is going to take a 
considerable effort. It may take 4 or 5 years of research and 
development in order to get this capability. So what we have 
done is deferred it, frankly.
    Mr. Critz. Okay. Another issue that came up as you were 
talking about the MECV and the JLTV concurrent development. 
Now, I think it was just this week that General Odierno 
believes that the renewed JLTV efforts are actually going to 
produce a vehicle that is more capable, better, and almost as 
inexpensive as recapping a Humvee. Now, would you agree that 
the JLTV procurement over the Humvee recap is still the best 
value for the government? Why, or why not?
    General Lennox. Sir, I think we have a good strategy.
    Mr. Critz. You are talking 2 to 3 years, right?
    General Lennox. Yes, sir. To look at it in that time period 
to make sure we have got it right, test those things, test to 
see if they can protect soldiers, what kind of weight can they 
carry, and see what industry can do.
    General Phillips. Congressman, if I can add one comment. We 
have learned a lot through the acquisition processes and 
lessons learned from some of the challenges that we have had in 
the past. So what you see with JLTV today and what we have also 
described with GCV and with Paladin and with the M4 carbine, we 
have brought the requirements and the resourcing and the 
acquisition communities together to really drive after what 
requirements are driving costs, what is necessary, what is 
absolutely essential, and if it is not essential and it is a 
high driver of cost, then we need to eliminate that 
requirement.
    That is exactly what we did with the Marines. When we 
pulled the Marines inside the process that we used for GCV, it 
was really overwhelming and powerful in terms of how we got to 
the requirements for JLTV today. So I would just add that we 
are very excited about what we can do with JLTV.
    Mr. Critz. Okay. Quick question about the AMPV [Armored 
Multi-Purpose Vehicle] program. Now it was 2007 when the M113 
was terminated. I know the fiscal year 2012 budget includes 
$31.4 million to start an M113 replacement program with LRIP 
[low rate initial production] not happening until fiscal year 
2016.
    Now, looking back at how the Stryker vehicle was handled 
was that 1999 chief of staff announced his intent to acquire 
2000, an award is made, 2002 it is in production, or in 
service, actually.
    So is the Stryker model going to be used for the AMPV 
program as to how we move this very quickly? Because certainly 
in these trying budgetary times it would be most prudent, I 
believe.
    General Lennox. We are trying to figure out who can take 
this one. I want to move it much faster, so I agree with you, 
Congressman. I think this is a critical capability. We have 
soldiers in combat today that are operating on vehicles. Then 
we are going to ask them to come home and they are going to go 
to their motor pools and they are going to see 113s and they 
are going to change the oil on them, and they know they are not 
going to take these things to combat. So we have got to figure 
out a way to move faster on it.
    The funding in 2012 is critical to that, frankly. We don't 
currently have it designed on the pace and speed of Stryker. 
There is a question of affordability, whether or not we can do 
that, but frankly we have got to figure out a way of how to do 
that faster.
    General Phillips. Sir, we would certainly look at applying 
the Stryker model and maybe doing it faster than Stryker did. 
Stryker, I worked it from 4 years inside the building. And in 
less than 4 years, 3/2 [Stryker Brigade Combat Team] out of 
Fort Lewis deployed into combat, in less than 4 years from the 
moment General Shinseki stepped on stage and said we are going 
to do this. Really remarkable. And Army acquisition did that. 
Light Utility Helicopter followed the model of Stryker. So we 
can learn a lot from our successes in the past as well. We 
would certainly look to use that opportunity.
    Mr. Critz. Thank you.
    Mr. Chairman, I do have one more question on CROWS [Common 
Remotely Operated Weapon Station], but I will wait for a second 
round so others can get their questions in. I yield back.
    Mr. Bartlett. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    I want to cover some questions with force structure and the 
soldier weight unit and the Stryker if we have time.
    But with regard to force structure, and in terms of 
equipping the force, what I would like to understand is the 
relationship between the current requirement of 45 Active-Duty 
brigade combat teams [BCT] and the cut to end strength of 
27,000 soldiers between 2015 and 2016. So how do you plan and 
program and budget for equipment, with a pending end strength 
cut of 27,000 soldiers when it is conditions-based, and are 
there plans to reduce the current requirement of 45 Active-Duty 
BCTs and/or exchange for a current mix of heavy infantry or 
Stryker brigades?
    General Lennox. A short answer ma'am, yes, to all those 
things. A challenge for us when you program for your equipment 
for the future, and we are reducing in the last budget 
submission 27,000 soldiers, we thought we had a pretty good eye 
on what the end strength would be and the mix would be. And 
obviously now with the change in the budget circumstances, we 
are going through a process that says here is the national 
military strategy, here needs to be the Army's strategy, here 
is the force structure that supports that strategy, and here is 
how we equip it. What is the mix of heavy, medium and light? 
That work is going on right now, and it is a moving target 
today. So I don't have a definitive answer for you, ma'am. It 
has made our job a little bit tougher.
    Mrs. Hartzler. I know it is a challenge and I empathize 
with you and I wish it weren't so. I appreciate what you are 
doing there.
    As far as the soldier weight unit or weight-load capacity 
and some of those issues, I know we had a hearing earlier in 
one of my subcommittees on that, and I know there has been 
efforts to try to reduce the weight reduction that our soldiers 
carry. And from what some articles have said, there are 20,000 
soldiers right now, non-deployable status due to muscle or bone 
injuries that can be attributed to carrying heavy rucksacks 
over rough terrain and often high altitudes over 15 months' 
deployment.
    So what improvements have been made in this issue to reduce 
the loads since 2009? Where are we at on those initiatives?
    General Phillips. Congresswoman, that is a great question. 
General Lennox and I were just at a forward operating base not 
far from the Pakistan border around Jalalabad, and we saw 
soldiers that were on patrol that were walking around carrying 
significant weight. We will never do enough to lighten the 
weight of a soldier, but we put an incredible amount of R&D and 
emphasis in it, everything from body armor to small arms to 
ounces, taking off thermal weapons sights, and I will give you 
just a couple of examples and ask General Lennox to join me.
    Like the heavy machine gun, the M42 going to a lighter 
machine gun, it saves about 36 pounds, and the tripod using 
titanium and other alloy is obviously a little more expensive 
but that saves about 16 pounds. If you add that up, it accounts 
to about 50 to 55 pounds of weight saved off two soldiers 
carrying that in combat operations. Thermal weapon sights that 
save a pound or ounces. The enhanced combat helmet will save a 
few ounces, 3 or 4 ounces itself. If we can give them a better 
round that is more effective and they don't have to carry as 
many rounds in combat operations, then that saves weight as 
well.
    Body armor. In Afghanistan they use the Soldier Plate 
Carrier System. That saves on the average about 10 pounds from 
soldiers when they have the authority to use the Plate Carrier 
System.
    Mountain boots. We were just there and we saw soldiers with 
boots, so we have a better mountain boot headed to Afghanistan 
today that is going to save about a pound each. And it is going 
to actually wick moisture away and operate better in a high, 
hot, mountainous environment. And there are lightweight mortars 
and other systems that we are working on as well, ma'am. We 
have to do more, though.
    General Lennox. It is funny, ma'am. We have done all of 
these things and when you go out and visit the soldiers like we 
did, you find they are still carrying 100 to 130 pounds of 
gear. So you take a little bit off and they will add something 
on. Extra water, extra ammunition. So it is going to be a 
constant challenge for us. We have requested about $80 million 
in 2012 to look at further technologies and efforts to get 
after those kind of things and continue the effort.
    Mrs. Hartzler. We have a business in my district that is 
doing some research on body armor, and the weight significantly 
is less than what is currently out there. So I know there is a 
lot of effort being made to try to do that. But it is still 
shocking that you are carrying around 8-, 10-, 12-hour days, 
whatever, that much weight.
    General Phillips. Ma'am, we would be glad to hear from your 
industry partners and their ideas.
    Mrs. Hartzler. Sure. I guess we are done. Thank you very 
much, Mr. Chairman.
    Mr. Bartlett. Thank you. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you all for 
your testimony. I know you are wrestling with some really tough 
choices and I appreciate your great commitment to our country.
    I had wanted to ask a question around the area of unmanned 
systems. So given the successes we have seen I think in 
protecting our men and women in uniform from IEDs and other 
threats, I am concerned that the Army isn't fully invested in 
the deployment of unmanned, future unmanned ground vehicle 
systems to further support our troops. So I am just wondering, 
is that the case? Is there a strategy in place? What do you see 
coming?
    General Lennox. Yes, ma'am. We had a program that was 
producing a very large unmanned vehicle with autonomous 
navigation system. It was very complex and expensive, and we 
did stop that program.
    We have sent to Afghanistan a variety of other programs 
that have smaller vehicles, to try to get at understanding how 
the soldiers would actually use those vehicles in combat. Are 
they good replacements for trucks and to take some of the load 
off off of the soldiers' backs or not. So we have some 
experiments going in theater. We are hoping to learn from that 
and inform us for the future in that regard.
    Ms. Tsongas. So it is not necessarily a coherent strategy? 
It is just sort of trying something, trying something else, 
evolving with it?
    General Lennox. I think we found what we were doing was 
producing something that was not cost-effective, was very 
expensive, and didn't produce the results we wanted. So really 
what we are doing is seeing what soldiers want and what will 
work as a way of informing us for the future.
    Ms. Tsongas. I imagine there is some smaller--ways to deal 
with this on a much smaller scale as well. I certainly have 
companies in my district, in the robotics area, that are 
constantly sort of coming at this in very different ways.
    General Phillips. Ma'am, could I take that on for a second? 
I would encourage the companies that you have within your 
district or anywhere in the U.S. that are interested in this. 
We are doing some remarkable work at the Network Integration 
Evaluation out at White Sands and Fort Bliss, and we are asking 
industry and partnering with industry to come and show us what 
their great ideas are, based upon gaps that we have in the 
Army. And General Lennox just described one of our gaps.
    If there are companies that are interested in that, we 
periodically will do this every 6 months, and will issue a RFI, 
request for information, that will go out and is published on 
the Federal Web pages. If companies have an interest in solving 
one of those gaps, we certainly want them to come forward. And 
those companies that you just described might be critical to us 
identifying the right capability to meet a gap.
    And what is important about White Sands is we can test it 
in an operationally relevant environment before we take it down 
range and then try to solve the problem with soldiers that are 
in combat and performing combat operations. We can do that at 
White Sands. So we want their feedback.
    Ms. Tsongas. You raised an interesting issue. This past 
week we had a district work period, and I have a lot--
Massachusetts is home to many, also clean energy companies, we 
have a robotics cluster, we have a lot of clean energy 
companies. And many of them were looking for ways to work with 
the Defense Department. And we actually put together a session 
in the morning in which representatives came to talk to these 
companies. They are not in the SBIR community, they are not as 
familiar with the processes. They are highly, highly 
innovative, and see a real opportunity to work with the Defense 
Department to solve some problems. So I can see where there are 
many ways in which this is also in the robotics community as 
well.
    But it raises another issue, and that is I am going to 
channel Congresswoman Giffords for a minute, and we do wish she 
were here. But as you talk about modernization, how do you 
think about energy consumption and how do you factor that into 
your efforts going forward?
    General Lennox. An important aspect, ma'am, an important 
aspect in how we determine our requirements. We do look at 
energy and energy consumption. And it is a factor as we look at 
new purchases. So, for example, on the Ground Combat Vehicle, 
one of our requirements is it needs to be more fuel-efficient-
per-pound a vehicle than its predecessor is. That doesn't mean, 
unfortunately, it will be more fuel efficient overall, but we 
will get a better aspect. And we are open to different kinds of 
technologies, I don't know if I can talk about those 
technologies, but different kinds of technologies that may come 
with a program as a solution to that problem.
    General Phillips. And, ma'am, we are ratcheting up our 
emphasis on energy and energy efficiency. The JLTV has a 
requirement similar to what General Lennox just described as 
well. And we learned a lot from the technical development phase 
which will all translate into the JLTV strategy that we are 
pushing forward.
    TRADOC, our TRADOC, Training and Doctorate Command, 
continues to work on capability documents to address energy 
efficiencies as well. And I think this will be an occurrence at 
the NIE [Network Integration Evaluation], but we will ask for 
companies to come forward and share with us their great ideas 
on energy efficiency, it might be generators, it might be 
something else, but to help us become more energy efficient. We 
are taking that on and we are very serious about it as well.
    Ms. Tsongas. I am glad to hear it. I can only see good 
things coming with that. As you wrestle with the high cost of 
energy, you have to look at ways to both conserve energy or use 
alternative fuels, and the more you are able to work with the 
private sector, and these very innovative thinkers out there, I 
can only see good things coming. So I encourage you to continue 
down that path. Thank you.
    I yield back.
    Mr. Bartlett. Thank you.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman. Thank you, Generals, 
for being here today.
    Can you talk a little bit or share what is the strategy or 
plan to provide the Army with a modern Armed Aerial Scout 
aircraft to replace the old OH-58?
    General Phillips. Congressman, thanks. We are currently 
looking for a fly-off over the next year, various commercial-
off-the-shelf, very limited adaptation platforms, that could 
help us meet this requirement. It will be a challenge for us 
with costing within our top line of the future. That will be a 
big factor.
    The capabilities of that aircraft, as you know, I think you 
know better than anybody, our aircraft are being flown 
significantly. The CH-47 Foxtrots are being flown 
significantly. The Kiowa Warriors are being flown significantly 
in theater. We have to find a replacement for the Kiowa 
Warriors over time, it is an old platform. And this fly-off is 
a little bit like the Stryker approach that we talked about 
earlier, to try to see what candidates are out there.
    Mr. LoBiondo. Thank you. Also, what is the Army strategy 
going forward for the Enhanced Medium Altitude Reconnaissance 
and Surveillance System [EMARSS]?
    General Lennox. Under review right now, sir. I have said in 
the press and probably spoke out of hand in the last couple 
weeks, but we are looking seriously at a lot of these 
capabilities. Can they be done in the Army? Should they be done 
in the Air Force? How many of these platforms should be 
purchased over time, and is the capability that is in theater 
doing that mission today something that can be replicated very 
quickly if you need it in the future?
    So this aircraft, fixed-wing aircraft for example today, 
has some SIGINT [signals intelligence] capabilities in the back 
of it. Can that be replicated if you don't have a big 
investment today? Can you rapidly replicate it in the future? 
These are all of the things we are considering now in the 
ultimate decision about the EMARSS aircraft.
    Mr. LoBiondo. Thank you, General.
    Thank you, Mr. Chairman. I yield back.
    Mr. Bartlett. Thank you very much.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Ms. Martin, Generals, thank you all for being here today. 
As Mrs. Hartzler was asking you questions and the new boots 
weighing a pound less, I was thinking back to around 8 years 
ago when I retired after 31 years, and it is exciting to me and 
I want to thank you that we have multiple generations of 
improvements to uniforms and equipment from just the time that 
I served. And indeed I point out to people, and I mean this as 
a compliment to you, that my uniform would be more appropriate 
in a museum. So it is just exciting, what you do.
    I want to put a bug in your ear, too, that in the district 
I represent, which includes the Savannah River Site, there is a 
great deal of research for modular nuclear reactors. And these 
to me are safe, secure, clean, but have extraordinary military 
application on facilities such as Fort Jackson or actually more 
remote. When I was at Kandahar, to see the size of Bagram-
Balad; the size of facilities and the security that could be 
provided in a wonderful place that I greatly appreciate, the 
island Territory of Guam. So I hope that you all are looking 
into the advancing technology of modular nuclear reactors.
    General Lennox, currently the Army is considering two 
program solicitations, one for a new individual carbine to 
replace the M4 and M16 and another for product improvements to 
the current platforms. In your judgment, does the Army have the 
funds to do both?
    General Lennox. Congressman Wilson, I think that is a good 
question. What we are trying to do now is see what improvements 
we can make to the current M4, the M4A1, and it is performing, 
the M4 itself is performing magnificently in combat today. The 
M4A1 we are continuing to improve. In the meantime, we think 
doing this carbine competition will inform us about what the 
best path is in the future.
    Now, affordability is going to be a big issue, frankly. We 
have got about 500,000 M4s, and to start over from scratch will 
be a challenge for us and it will be influenced by what the 
budgetary environment looks like when we come to make this 
decision. I think in about 3 years is the time frame for this. 
So we are going to continue along this path. We are going to 
see what industry is capable of producing. We think there is a 
lot of exciting things being done out there, but affordability 
is going to be an important fact.
    Mr. Wilson. Another factor. Is there any assurance that you 
can provide, the Army did not conceive the new carbine 
requirements without first examining already existing new 
weapons platforms such as the Special Operations Command 
carbine competition?
    General Phillips. Sir, I can confirm that. We looked 
through market research, what currently exists inside the Army, 
Special Operations Command, and in industry we looked 
holistically before we proceeded with the program, sir.
    Mr. Wilson. I have three sons serving in the Army, so I 
actually have a personal interest. Thank you again for what 
both of you all are doing.
    Ms. Martin, as the Army approaches the launch of the 
technology development phase of the Ground Combat Vehicle, what 
do you see as the major areas of risk for this program to meet 
the performance expectations within a 7-year schedule?
    Ms. Martin. Thank you, Representative Wilson. As I 
mentioned in the testimony, we have identified a number of 
questions. One, urgency of the need, cost and affordability, 
the robustness of the analysis of alternatives, and, again, the 
plausibility of delivering on that schedule. And in the 
technology, the development phase, as the generals have 
mentioned, there will be an opportunity to not only look at the 
vehicles that are being developed, but also look at non-
developmental items as well as refining the requirements.
    So to the extent that these activities take place during 
the technology development phase, that should position the Army 
to be in a better place in 18 months to 2 years to be able to 
make a decision as to whether a new vehicle is the right 
answer, or maybe modifications to a current vehicle.
    Mr. Wilson. Thank you for that very thorough response. 
Thank you.
    To both generals, as the Army prioritized components within 
the product improvement program, can you distinguish between 
sustainment and improvement?
    General Lennox. I think both those are important aspects of 
incremental modernization, Congressman. I think increasingly we 
are looking at sustainment costs--I don't know that we have 
always done that--and weighing that versus affordability in 
making the initial improvements.
    So some of the earlier comments we made about the big 
savings you could make if you did something to the Abrams 
engine are absolutely true. The question is can you afford to 
do them or not. So we are weighing sustainment costs as an 
aspect of this as we make decisions.
    Mr. Wilson. Again, thank you all for your service.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I will be very brief. 
Actually, Congressman Wilson touched on the M4 issue which is 
what I was going to focus on. I appreciate that update. We will 
be anxious to see what the results going forward are. My son 
and I shoot our M4s pretty regularly, and the fact it allows me 
to hit 200 yards out with open sights speaks to what a great 
weapon it is, because I don't have that great a shooting 
eyesight. But it certainly has a proven record, and I think the 
balance that you are taking of whether you can up-improve it, 
but also within budget constraints, is an important one in 
finding that right match going forward.
    The final comment is a word of thanks. I know the 
assignment you both have been given, and your colleagues, of 
continuing to meet the needs of our Army in these budget times 
with the cuts that are coming is a challenging one, and we are 
grateful for your leadership and your efforts in meeting that 
challenge. I appreciate your service.
    With that, I yield back, Mr. Chairman.
    Mr. Bartlett. Thank you very much.
    As anticipated, most of the questions I thought needed to 
be asked have been asked. I have just a couple of questions. I 
have a brief question for the record.
    On August 1, in response to a letter to the Secretary of 
the Army, we got the response, ``The draft addendum does not 
include a KPP [Key Performance Parameter] against rocket-
propelled grenades.'' However, General Odierno stated in 
testimony on 21 July of this year, and I quote, ``The 
competitive Humvee Recap Program will incorporate scalable 
protection and plan for additional protection against rocket-
propelled grenades.''
    It would seem to me to only make sense that the Army would 
provide similar or greater protection against RPGs [rocket 
propelled grenade] for the MECV Humvee Recap Program as is 
provided today for the MATV.
    And my question is, and give me a one word answer today, 
and if you want to amplify, do that for the record: Can you 
confirm that the Army plans to include RPG protection as a 
requirement as part of the MECV Humvee Recap Program? A one 
word answer, and then amplify for the record if you wish.
    General Phillips. Sir, I will answer. The answer is yes.
    Mr. Bartlett. Thank you. And you can amplify for the 
record.
    General Phillips. Sir, we will amplify for the record. We 
learned so much from operations down range.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Bartlett. Thank you so much.
    I have a couple of questions for our witness from GAO. You 
mentioned the requirements for one of our developments was not 
achievable, and I have a question about requirements. We need 
to ask two questions about requirements that I am not sure we 
ask and adequately answer in our developments.
    The first question is just that question: Is the 
requirement achievable? And the second question is maybe an 
even more important question: After you decide that yes, it is 
achievable, then we need to know, do we really need to do all 
that? Maybe getting 95 percent of the way there for half the 
cost will be quite adequate. At some point my farmer friend 
would say, I am not sure the juice is worth the squeezing. Do 
you think that we have an adequate procedure for addressing 
these two questions in our development programs?
    Ms. Martin. Thank you, Chairman. Yes, I think within the 
acquisition process there is ample opportunity to develop and 
refine requirements, and I think all three of us have talked 
about that process a bit today.
    We sometimes start out with requirements that may be nice 
to have, but as we go through the technology development and 
other phases of the acquisition process, there are ample 
opportunities to refine those requirements because we match 
them with costs, with schedules, and determine affordability.
    Certainly we saw with the JLTV program that some of the 
original projected requirements, when they went into tech 
development, were not achievable. To get the protection that 
they needed, you would not be able to be able to still 
transport the vehicle because it would weigh too much. So there 
were some trades there. So, again, the acquisition process does 
allow for trades in requirements.
    General Lennox talked about the portfolio reviews. That is 
another opportunity to really look at capabilities, look at 
programs across a spectrum, and kind of determine there what do 
we really need with respect to capabilities, what can we live 
without? And in doing that, you have the opportunity to drive 
down costs.
    Mr. Bartlett. Our procurement history I think indicates 
that we may not be aggressive enough in asking these questions 
and answering them, because it is only in very rare development 
cases that we do not have a program that runs too long and 
costs too much as compared to our original expectations.
    So I would hope that we might have a more vigorous dialogue 
on these two things: First of all, is it attainable; and, 
secondly, do you really need that much at that cost? Answering 
these questions in today's environment is going to be even more 
important.
    As the Army proceeds to implement its Network Investment 
Strategy, what advice would GAO offer the Army on how to 
proceed? What are the major areas of risk for the Army to focus 
its management and attention on?
    Ms. Martin. As I mentioned in my short statement, we think 
the evaluations that are taking place at Fort Bliss are a good 
step forward. They allow the Army to identify some baseline 
capabilities. There is an opportunity for incrementally 
building on the capabilities that are there. Obviously, getting 
input from the soldier is very important because they are the 
ones that are ultimately using this equipment.
    A couple of independent test evaluators have talked about 
the importance of being able to gather kind of objective and 
measurable data, and I think that is something that hopefully 
the Army will do as they continue these evaluations. And we 
also mention the importance of having overall requirements for 
the network so that you fully understand how the various pieces 
fit together.
    But, by and large, we certainly think that these 
evaluations are a positive step forward and can glean a lot of 
really useful information as the Army moves forward.
    Mr. Bartlett. Thank you. I have another comment or question 
or two, but we will do that at the end of a second round of 
questions.
    My ranking member, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. I just have one other 
question. It is regarding the Joint Air-to-Ground Missile. Does 
the Army still have a requirement for this weapon?
    General Lennox. Yes, sir, we do.
    Mr. Reyes. While the program has been delayed, are you 
aware of any technical problems or major requirement changes 
that might lead to a potential decision to terminate it?
    General Lennox. Congressman Reyes, what we are struggling 
with now is we have a number of the highest priority programs 
that we want to fund, and then there is another tier that we 
have to ask ourselves can you afford these in the future. JAGM 
as a program has been very effective and is working without 
problems, but it will ultimately be a question of 
affordability. No decisions have been made yet, but that will 
be one of the programs we are going to have to ask ourselves, 
do you continue with Hellfire, which is doing well in combat 
today, or do you go to the next generation? Kind of getting at 
some of the conversations we have had earlier is incremental 
improvement--or should we go to the next generation, and can 
you afford to do that? And that will be something we will be 
wrestling with.
    Mr. Reyes. Thank you, Mr. Chairman. That is all I have.
    Mr. Bartlett. Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    In talking about the Commonly Remote Operative Weapons 
Station, the CROWS system, I have three questions that revolve 
around the CROWS, and mainly because I am a little baffled.
    In the first performance specs on both the Humvee Recap and 
the JLTV, they included a requirement for the CROWS. Subsequent 
updates to both performance specs removed the CROWS 
requirement. The alternative to having a CROWS system leaves a 
gunner exposed to snipers and IEDs. We know that. With the 
Army's commitment to the CROWS system as part of the Stryker 
and MRAP programs, why would this capability be removed from 
the Humvee Recap and the JLTV?
    So I guess there are three questions: Is this system 
working? Two, why was it removed from the spec? And if we are 
dedicated to it in the Stryker and the MRAP, why aren't we 
keeping it on the Humvee Recap and the JLTV?
    General Phillips. Sir, CROWS is working well and in use, as 
you just described, in MRAPs and other vehicles in combat 
operations today.
    Number two, the reason it was removed is because it will 
remain a part of the actual system, and whoever results from 
the winner of the MECV program, the Humvee Recap, will actually 
be charged to integrate the CROWS system inside the vehicle 
itself. So CROWS is actually a part of our program going 
forward, even though it might not be an integral part of the 
phase one, which is the RDT&E [research, development, test, and 
evaluation] that we want the companies interested in the MECV 
program to be interested or to come forward with. So it will be 
a part of the final solution for both JLTV and for the MECV.
    Mr. Critz. Okay. All right. Thanks. And one quick question.
    On the MECV program, General Phillips, you had said that--
you sort of snickered when I asked about could we mirror the 
Stryker, but then you said maybe you could do it quicker. Is 
there anything--are you hinting or intimating there is 
something we could do on this committee to be helpful in that 
aspect?
    General Phillips. Sir, if there is something that we need 
your help with, we will certainly come forward and ask for your 
help and support.
    If I can talk about the acquisition process just for one 
second, sometimes we hide behind the laws and the rules and the 
statutory and policy requirements. I think if we try to work 
within them better and to better understand them, we might be 
able to accomplish the mission. And that is exactly what we did 
with Stryker, what we did with the Light Utility Helicopter, 
and it is what we are trying to do today with rapid acquisition 
and a more agile acquisition process, using White Sands and the 
NIE effort that we have ongoing.
    So first we will work within the process itself and try to 
achieve efficiencies. Sir, if we need your help, we will come 
and ask you.
    Mr. Critz. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Bartlett. Thank you very much.
    At least to some extent, what you all are now doing and 
what we are doing here today in this hearing and the series of 
hearings that we are having in this committee, are exercises in 
futility, because there are two questions to which we do not 
have an answer and we really need an answer to these two 
questions before we can rationally and intelligently proceed.
    One of those is what will be our future strategy. There is 
a considerable concern that we will not be able to use our 
military in the future the way we have used it in the past, and 
we have not really come to terms with that. We do not have a 
strategy. Until you have a strategy, you do not know what kind 
of military you will need.
    Having decided that question, then the next question to 
which we do not have an answer is, how much money will we have? 
So I apologize for the uncertainties that we labor under. We do 
not know what our national strategy for the use of our military 
will be for coming years and we do not know how much money we 
will have to implement that strategy. So thank you for 
persevering and serving your country in these difficult times.
    Thank you very much for your testimony. Do the members of 
the subcommittee have any additional questions or comments?
    Okay. Thank you very much for being with us today.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            October 26, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 26, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1453.001
    
    [GRAPHIC] [TIFF OMITTED] T1453.002
    
    [GRAPHIC] [TIFF OMITTED] T1453.003
    
    [GRAPHIC] [TIFF OMITTED] T1453.004
    
    [GRAPHIC] [TIFF OMITTED] T1453.005
    
    [GRAPHIC] [TIFF OMITTED] T1453.006
    
    [GRAPHIC] [TIFF OMITTED] T1453.007
    
    [GRAPHIC] [TIFF OMITTED] T1453.008
    
    [GRAPHIC] [TIFF OMITTED] T1453.009
    
    [GRAPHIC] [TIFF OMITTED] T1453.010
    
    [GRAPHIC] [TIFF OMITTED] T1453.011
    
    [GRAPHIC] [TIFF OMITTED] T1453.012
    
    [GRAPHIC] [TIFF OMITTED] T1453.013
    
    [GRAPHIC] [TIFF OMITTED] T1453.014
    
    [GRAPHIC] [TIFF OMITTED] T1453.015
    
    [GRAPHIC] [TIFF OMITTED] T1453.016
    
    [GRAPHIC] [TIFF OMITTED] T1453.017
    
    [GRAPHIC] [TIFF OMITTED] T1453.018
    
    [GRAPHIC] [TIFF OMITTED] T1453.019
    
    [GRAPHIC] [TIFF OMITTED] T1453.020
    
    [GRAPHIC] [TIFF OMITTED] T1453.021
    
    [GRAPHIC] [TIFF OMITTED] T1453.022
    
    [GRAPHIC] [TIFF OMITTED] T1453.023
    
    [GRAPHIC] [TIFF OMITTED] T1453.024
    
    [GRAPHIC] [TIFF OMITTED] T1453.025
    
    [GRAPHIC] [TIFF OMITTED] T1453.026
    
    [GRAPHIC] [TIFF OMITTED] T1453.027
    
    [GRAPHIC] [TIFF OMITTED] T1453.028
    
    [GRAPHIC] [TIFF OMITTED] T1453.029
    
    [GRAPHIC] [TIFF OMITTED] T1453.030
    
    [GRAPHIC] [TIFF OMITTED] T1453.031
    
    [GRAPHIC] [TIFF OMITTED] T1453.032
    
    [GRAPHIC] [TIFF OMITTED] T1453.033
    
    [GRAPHIC] [TIFF OMITTED] T1453.034
    
    [GRAPHIC] [TIFF OMITTED] T1453.035
    
    [GRAPHIC] [TIFF OMITTED] T1453.036
    
    [GRAPHIC] [TIFF OMITTED] T1453.037
    


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            October 26, 2011

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MR. BARTLETT

    General Lennox and General Phillips. Yes, the Army plans to 
incorporate the requirement of Rocket Propelled Grenade (RPG) 
protection as part of the Modernized Expanded Capacity Vehicle (MECV) 
Program. The MECV Program fully incorporates the concept of scalable 
armor with a base cab protection of small arms protection or greater, 
and B-kit armor to achieve protection similar to what is provided 
across the Mine Resistant Ambush Protected All Terrain vehicle fleet 
today.
    The MECV Performance Specification is broken into two sections; an 
unclassified performance specification and a classified annex to that 
performance specification. Both address the scalable armor MECV 
specifications. Below is an unclassified excerpt of the RPG requirement 
from the classified annex:
    [The information referred to is For Official Use Only and is 
retained in the committee files.]
    [See page 22.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 26, 2011

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. How does the MRAP-All Terrain Vehicle (ATV) and MRAPs 
fit into the wheeled vehicle fleet along with HMMWVs and JLTVs? Why not 
just use the M-ATV and MRAPs which have proven to be combat effective?
    General Lennox. The Mine Resistant Ambush Protected (MRAP) and 
MRAP-All Terrain Vehicles (M-ATV) fit into the tactical wheeled vehicle 
fleet by complementing the light, medium and heavy systems. 
Approximately 15,000 MRAPs and 5,000 MATVs were produced and fielded to 
provide protected mobility for Soldiers supporting Operation Enduring 
Freedom and Operation Iraqi Freedom/Operation New Dawn. Of those 
projected to return from theater to the Army, the Army currently 
intends to place approximately 37% of the M-ATV and MRAP vehicles into 
unit Tables of Organization and Equipment (TOE) and within the training 
base, 59% into Army Prepositioned Stocks (APS), and 4% into war reserve 
and contingency retention stocks to be available for future conflicts.
    The MRAPs being placed on unit TOEs are primarily for missions 
outside of the scope of HMMWV and JLTV. For example, MRAPs will be used 
as Route Clearance Vehicles (RCVs) and Explosive Ordnance Disposal 
(EOD) missions where their heavy armor and limited off-road ability fit 
well with the RCV and EOD mission requirements.
    For those MRAPs/M-ATVs being placed in APS, they will perform 
missions close to those being executed successfully in operations 
today. These do have an overlap with the HMMWV and JLTV mission set. 
However, MRAP/M-ATV are: 1) insufficient in quantity to cover all Army 
protected mobility needs (i.e., current projected MRAP/M-ATV 
requirements are 46,000); 2) have limited off-road mobility for the 
broad range of missions sets executed by light tactical vehicles; and 
3) are not cost effective to field further (the current cost projection 
for JLTV is 33% of the procurement and sustainment costs of MRAP/M-ATV 
costs). MRAP/M-ATV are not a practical replacement for our entire light 
tactical vehicle fleet requirement. JLTV capability is still required 
to meet all requisite missions.
    Mr. Bartlett. The 7-year GCV program has significant risk and is 
very costly. What will the Army do if significant funding reductions 
are made?
    General Lennox. The Ground Combat Vehicle (GCV) is the objective 
vehicle of the Army's Combat Vehicle Modernization Strategy. The GCV 
allows an infantry squad to accompany tanks in both open and complex 
terrain from initial contact to the objective. The GCV will fill 
capability gaps that currently exist in the formation for force 
protection, survivability, network interoperability, mobility, and 
lethality. The system has an iterative design that will allow for the 
growth of additional capabilities. The Army is committed to fully 
resourcing the GCV and has already made trades within the combat 
vehicle portfolio to ensure full funding of the GCV program.
    Current funding develops critical technologies and allows for an 
analysis of alternatives that will further inform GCV requirements. The 
program is scheduled for Milestone B in 1QFY14.
    In the event of further resource constraints, the Army intends to 
continue full funding of the GCV as it is one of the Army's most 
important programs
    Mr. Bartlett. What is the Modernized Expanded Capacity Vehicle 
(MECV) program and how does it align with the Army's light tactical 
vehicle strategy?
    General Lennox. The MECV program supports the Army's Light Tactical 
Vehicle (LTV) Strategy by filling the capability gap for External Air 
Transport requirement for Air Assault missions that will not be filled 
by the Joint Light Tactical Vehicle (JLTV). The Strategy states that 
the LTV fleet will be comprised of unarmored vehicles, UAHs and JLTVs. 
The MECV is part of the UAH fleet and will have a greater protection 
level as well as have the capability to be air-moved by the CH-47 
helicopter.
    It is also part of our modernization effort of the existing Up-
Armored High Mobility Multipurpose Wheeled Vehicle (UAH) fleet. The 
MECV program is focused on providing about 6,000 vehicles or 1/10th of 
the oldest UAH fleet with improved protection similar to that of the 
Mine Resistant Ambush Protected All-Terrain Vehicle; while improving or 
maintaining adequate off road mobility to support maneuver forces and 
provide payload capacity to support mission requirements. On 20 July 
2011, a Materiel Developmental Decision was approved and authorization 
was granted for the MECV Competitive HMMWV Recapitalization Program to 
enter into pre-Milestone C. The Milestone C decision is scheduled for 
4th Quarter of FY13.
    Mr. Bartlett. In regards to the Stryker Double V Hull, how many 
does the Army plan to procure and does the Army plan to go back and 
retrofit any current Stryker Brigades with the Double V Hull as they go 
through the reset process?
    General Lennox. The Army has a current procurement target of 2 
Stryker Brigade Combat Teams (SBCT) with Double V Hulls (DVH), totaling 
742 DVH Stryker vehicles, based on minimum operational and training 
needs. It would cost $14B and approximately 14 years to outfit our 
entire current Stryker fleet with DVH, assuming 4 years of Research, 
Development, Test, and Evaluation and conversion of one SBCT per year. 
While this is a possible course of action, the Army is currently 
evaluating options for the composition and structure of its combat 
vehicle fleet. The Army currently has no plans to retrofit any current 
Stryker Brigades with the DVH as they go through the reset process. 
Once the Army decides on the appropriate fleet mix and number of combat 
vehicles, the number of DVH Strykers, and variants of Strykers, will be 
finalized.
    Mr. Bartlett. With the Army termination of the Autonomous 
Navigation System (ANS) prior to the Army obtaining the Technical Data 
Package (TDP), will the upcoming JIEDDO Requirements cost the Army more 
than completing the ANS to TDP? Is there merit in reviewing the ANS 
capability on various platforms besides the MM-UGV?
    General Phillips. Based on our analysis, it will cost the Army more 
to complete the ANS TDP than the Joint Improvised Explosive Device 
Defeat Organization (JIEDDO) plans to spend on a competitive evaluation 
of autonomous Counter Improvised Explosive Device solutions. The 
estimated cost to complete the ANS TDP ($20M to $27.5M) would be 
additive to the cost of either a competitive or sole source effort. The 
Army decision to cancel the Multi-Mission Unmanned Ground Vehicle, 
consisting of the ANS and Common Mobility Platform, was based on two 
critical pieces of information: (1) Performance of the competitive 
autonomy systems, and (2) lack of a documented requirement for the 
Unmanned Ground Vehicle, to include the ANS.
    There is little, if any, merit in reviewing the ANS capability on 
other platforms because as determined during the Vice Chief of Staff, 
Army directed assessment; there are many on-going efforts capable of 
providing similar autonomous navigation capabilities. The JIEDDO 
recognizes this and is using an open competitive call to meet their 
needs at a potentially lower cost than the cost of ANS described above.
    Mr. Bartlett. How does the MRAP-All Terrain Vehicle (ATV) and MRAPs 
fit into the wheeled vehicle fleet along with HMMWVs and JLTVs? Why not 
just use the M-ATV and MRAPs which have proven to be combat effective?
    General Phillips. The Mine Resistant Ambush Protected (MRAP) and 
MRAP-All Terrain Vehicles (M-ATV) fit into the tactical wheeled vehicle 
fleet by complementing the light, medium and heavy systems. 
Approximately 15,000 MRAPs and 5,000 MATVs were produced and fielded to 
provide protected mobility for Soldiers supporting Operation Enduring 
Freedom and Operation Iraqi Freedom/Operation New Dawn. Of those 
projected to return from theater to the Army, the Army currently 
intends to place approximately 37% of the M-ATV and MRAP vehicles into 
unit Tables of Organization and Equipment (TOE) and within the training 
base, 59% into Army Prepositioned Stocks (APS), and 4% into war reserve 
and contingency retention stocks to be available for future conflicts.
    The MRAPs being placed on unit TOEs are primarily for missions 
outside of the scope of HMMWV and JLTV. For example, MRAPs will be used 
as Route Clearance Vehicles (RCVs) and Explosive Ordnance Disposal 
(EOD) missions where their heavy armor and limited off-road ability fit 
well with the RCV and EOD mission requirements.
    For those MRAPs/M-ATVs being placed in APS, they will perform 
missions close to those being executed successfully in operations 
today. These do have an overlap with the HMMWV and JLTV mission set. 
However, MRAP/M-ATV are: 1) insufficient in quantity to cover all Army 
protected mobility needs (i.e., current projected MRAP/M-ATV 
requirements are 46,000); 2) have limited off-road mobility for the 
broad range of missions sets executed by light tactical vehicles; and 
3) are not cost effective to field further (the current cost projection 
for JLTV is 33% of the procurement and sustainment costs of MRAP/M-ATV 
costs). MRAP/M-ATV are not a practical replacement for our entire light 
tactical vehicle fleet requirement. JLTV capability is still required 
to meet all requisite missions.
    Mr. Bartlett. The 7-year GCV program has significant risk and is 
very costly. What will the Army do if significant funding reductions 
are made?
    General Phillips. The Ground Combat Vehicle (GCV) is the objective 
vehicle of the Army's Combat Vehicle Modernization Strategy. The GCV 
allows an infantry squad to accompany tanks in both open and complex 
terrain from initial contact to the objective. The GCV will fill 
capability gaps that currently exist in the formation for force 
protection, survivability, network interoperability, mobility, and 
lethality. The system has an iterative design that will allow for the 
growth of additional capabilities. The Army is committed to fully 
resourcing the GCV and has already made trades within the combat 
vehicle portfolio to ensure full funding of the GCV program.
    Current funding develops critical technologies and allows for an 
analysis of alternatives that will further inform GCV requirements. The 
program is scheduled for Milestone B in 1QFY14.
    In the event of further resource constraints, the Army intends to 
continue full funding of the GCV as it is one of the Army's most 
important programs.
    Mr. Bartlett. What is the Modernized Expanded Capacity Vehicle 
(MECV) program and how does it align with the Army's light tactical 
vehicle strategy?
    General Phillips. The MECV program supports the Army's Light 
Tactical Vehicle (LTV) Strategy by filling the capability gap for 
External Air Transport requirement for Air Assault missions that will 
not be filled by the Joint Light Tactical Vehicle (JLTV). The Strategy 
states that the LTV fleet will be comprised of unarmored vehicles, UAHs 
and JLTVs. The MECV is part of the UAH fleet and will have a greater 
protection level as well as have the capability to be air-moved by the 
CH-47 helicopter.
    It is also part of our modernization effort of the existing Up-
Armored High Mobility Multipurpose Wheeled Vehicle (UAH) fleet. The 
MECV program is focused on providing about 6,000 vehicles or 1/10th of 
the oldest UAH fleet with improved protection similar to that of the 
Mine Resistant Ambush Protected All-Terrain Vehicle; while improving or 
maintaining adequate off road mobility to support maneuver forces and 
provide payload capacity to support mission requirements. On 20 July 
2011, a Materiel Developmental Decision was approved and authorization 
was granted for the MECV Competitive HMMWV Recapitalization Program to 
enter into pre-Milestone C. The Milestone C decision is scheduled for 
4th Quarter of FY13.
    Mr. Bartlett. In regards to the Stryker Double V Hull, how many 
does the Army plan to procure and does the Army plan to go back and 
retrofit any current Stryker Brigades with the Double V Hull as they go 
through the reset process?
    General Phillips. The Army has a current procurement target of 2 
Stryker Brigade Combat Teams (SBCT) with Double V Hulls (DVH), totaling 
742 DVH Stryker vehicles, based on minimum operational and training 
needs. It would cost $14B and approximately 14 years to outfit our 
entire current Stryker fleet with DVH, assuming 4 years of Research, 
Development, Test, and Evaluation and conversion of one SBCT per year. 
While this is a possible course of action, the Army is currently 
evaluating options for the composition and structure of its combat 
vehicle fleet. The Army currently has no plans to retrofit any current 
Stryker Brigades with the DVH as they go through the reset process. 
Once the Army decides on the appropriate fleet mix and number of combat 
vehicles, the number of DVH Strykers, and variants of Strykers, will be 
finalized.
    Mr. Bartlett. With the Army termination of the Autonomous 
Navigation System (ANS) prior to the Army obtaining the Technical Data 
Package (TDP), will the upcoming JIEDDO Requirements cost the Army more 
than completing the ANS to TDP? Is there merit in reviewing the ANS 
capability on various platforms besides the MM-UGV?
    Ms. Martin. In response to a recent request from this Subcommittee, 
we are starting a review of the Army's decision to cancel further 
development of the Autonomous Navigation System (ANS). At this point, 
we have not seen the upcoming JIEDDO requirements and do not know if 
the ANS capabilities are applicable. In our forthcoming review, we 
expect to develop an understanding of the ANS and how it fits with 
other initiatives in the unmanned ground vehicle arena.
    Mr. Bartlett. As the Army proceeds to implement its network 
investment strategy, what advice would you offer the Army on how to 
proceed? What are the major areas of risk for the Army to focus its 
management attention?
    Ms. Martin. The Army's network investment strategy has a number of 
major areas of risk that deserve management attention. In our written 
statement, we highlighted risks to the Army's strategy of proceeding 
without:

    <bullet>  Clearly defined requirements for the overall network and 
articulating clearly defined capabilities for network components. These 
are important so that the various capabilities the Army is developing 
will work together as a network.
    <bullet>  Realistic cost and schedule projections for meeting 
incremental network objectives. We think it is a good idea to build on 
current capabilities in an incremental fashion. However, cost and 
schedule projections are important so that decision makers can 
determine if progress is being made, reset objectives based on that 
progress, and make informed decisions about further program 
investments.
    <bullet>  A clear strategy to take advantage of the potential test 
data and information available from the Network Integration Evaluations 
(NIE) both in terms of the existing network and potential improvements. 
In terms of manpower, equipment, and logistics, these NIEs are 
expensive endeavors and it is important to have a strategy in place to 
fully capitalize on the resources and time invested in these 
evaluations.
    <bullet>  A well defined acquisition and contracting strategy for 
funding and rapidly procuring promising network technologies. Such a 
strategy will position the Army to procure the emerging technologies in 
a timely manner and at a fair price.
    <bullet>  Well-defined plans for developing and maturing software 
defined radios and waveforms. These plans are important so that the 
Army can make timely decisions about procuring radios in sync with 
technically mature waveforms.

    As it proceeds to implement its network investment strategy, our 
advice would be for the Army to focus on resolving these risks to fully 
capitalize on current and emerging network capabilities.
    Mr. Bartlett. Similarly, from what you know so far, how do the 
Army's plans for the Ground Combat Vehicle differ from its plans to 
develop the manned ground vehicles within FCS?
    Ms. Martin. The Army's plans for GCV are very different from the 
Future Combat System's (FCS's) manned ground vehicle (MGV) plans from 
both a vehicle capability perspective and a program management 
perspective. MGVs were to be a family of vehicles while GCV is expected 
to be a single purpose vehicle. The Army's intent with the MGVs was to 
replace vehicle mass with superior information. In other words, the 
vehicles would be much lighter than traditional combat vehicles and 
rely less on armor and more on information superiority for their 
survivability, which was to be provided by an advanced information 
network. After the FCS termination, the Army changed its position, 
realizing it could not completely eliminate the ``fog of war'' with 
networking, and it presented a GCV concept that was predicated on a 
more traditional vehicle protection approach that utilizes heavy armor. 
The Army also appears to have tempered its desire for revolutionary 
capabilities whose development would add cost and schedule risk to the 
program. With FCS vehicles, the Army wanted a number of capabilities--
advanced information network, lightweight armor, and active protection 
system--that required significant advancements in technology. With GCV, 
the Army cancelled the original request for proposals over concerns 
that requirements were too demanding. Since then, the Army has revised 
its requirements and is allowing contractors to propose alternative 
ways to provide certain GCV capabilities.
    The Army's acquisition plans for GCV are very different and much 
more conventional than its earlier MGV plans. The FCS program entered 
system development after a 1-year concept and technology demonstration 
period. It was approved for development despite having immature 
technologies and poorly defined requirements. Because of the FCS 
program's ambitious goals, the Army did not feel that it had the 
capacity to manage the program. As a result, the Army decided to employ 
a lead systems integrator to assist in defining, developing, and 
integrating FCS. The role of the integrator was not simply that of a 
traditional prime contractor but also included some elements of a 
partner to the government in ensuring the design, development, and 
prototype implementation of the FCS network and family of systems 
(including the MGV's). The FCS MGV's were 6 years into development 
before the program had accumulated enough knowledge to consider having 
a preliminary design review. At about the same time, the Secretary of 
Defense decided to cancel the MGV portion of the FCS program. With GCV, 
the Army is planning a 2-year technology development phase and is 
encouraging the contractors to use mature technologies in their 
subsystem designs. The Army plans to manage the GCV program in a more 
conventional manner. The Army will be using at least two contractors in 
technology development in an attempt to encourage innovation and 
competition and expects to have competing contractors in system 
development as well. The Army has shown flexibility on detailed GCV 
requirements and plans to have a preliminary design review prior to 
completion of the technology development phase.
    Mr. Bartlett. As the Army approaches the launch of the technology 
development phase for the Ground Combat Vehicle, what do you see as the 
major areas of risk for this program to meet its performance 
expectations within a 7-year schedule?
    Ms. Martin. In March 2011, we reported that as it approached a 
Milestone A review, key questions on GCV pertain to how urgently it is 
needed, robustness of the analysis of alternatives, its cost and 
affordability, plausibility of its schedule, and
whether mature technologies will be used. We noted the importance of 
addressing such questions to getting a good start on demonstrating the 
match between GCV requirements and resources by the end of the 
technology development phase. In our October written statement, we 
noted that while the Under Secretary of Defense for Acquisition, 
Technology, and Logistics agreed that the Army had a priority need for 
a GCV, the number of caveats in the approval memorandum--which 
permitted the start of the technology development phase--raises 
questions about the soundness of the Army's acquisition plans and 
timelines. The Army is now conducting a more robust analysis of 
alternatives that considers non-developmental vehicles and their 
potential to provide an infantry fighting vehicle capability instead of 
a new vehicle program. The Army and its contractors will be expected to 
continue making capability and requirements trades in order to achieve 
a realistic vehicle design that can yield a first production vehicle 
within 7 years. The Army will face a challenge in achieving a fixed 
procurement cost target for GCV given that independent cost estimates 
are at least 30 percent higher than Army estimates. The expected 
reduction in the defense budget may impact GCV funding even with the 
Army making adjustments in its combat vehicle portfolio to make funding 
GCV a priority. While the Army has encouraged contractors to use mature 
technologies, it is not clear whether this is happening. The use of 
mature technologies can contribute to better acquisition program 
outcomes, while the use of immature technologies can be a leading 
indicator that programs are less likely to succeed within planned cost 
and schedule resources. Delivering a feasible, cost-effective, and 
executable GCV solution presents a major challenge to the Army. Over 
the next two years during the technology development phase, the Army 
faces major challenges in deciding which capabilities to pursue and 
include in a GCV vehicle design and determine whether the best option 
is a new vehicle or modifications to a current vehicle.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY

    Mrs. Roby. In working with the bases in my state, I understand the 
Army has a goal to have a joint multi-role aircraft for rotary wing 
transport on the books by 2030. The concern is that emphasis has been 
placed on modernizing our current rotary wing fleet and we may have 
lost sight on moving to a new platform. Current platforms are going 
limited even with modernization in several areas that we must move 
forward including: need crafts to go faster than 200 knots, reducing 
logistic footprint and reduce fuel consumption. With all of the 
concerns of what the action of Joint Select Committee on Deficit 
Reduction will have on DOD appropriations, what will the possible 
reduction in appropriations do in impacting that deadline?
    General Lennox. Reductions in appropriations for the Department of 
Defense could delay the development of technologies which could be 
applicable to the Joint Multi-Role Aircraft (JMR). Stable funding is 
key to developing and maturing these required technologies.
    The Army fully intends to continue to pursue development of the JMR 
in an attempt to fill capability gaps that cannot be addressed now 
because current technologies are either infeasible or too immature. 
These capability gaps are in the areas of survivability, lethality, 
performance, maintainability, supportability, flexibility, and 
versatility. Development of the JMR will lead to common aircraft 
components that will be scalable in size and will provide a common 
aircraft architecture that will support mission-specific equipment 
packages to meet future vertical lift requirements.
    While the Army pursues the development of the JMR, it must also 
continue with modernization efforts on current platforms to ensure that 
Army aviation units are modular, capable, lethal, tailorable, and 
sustainable. These modernization efforts mitigate capability gaps until 
the JMR technologies mature.
    Mrs. Roby. I proudly represent the Second District of Alabama that 
has Fort Rucker--the home of the U.S. Army Aviation Center of 
Excellence. Last week, we had the privilege of Chairman McKeon visiting 
the base and to see the training that our rotary wing aviators go 
through and the great work that our soldiers are doing there. Our 
rotary wing war fighters have been key to our mission in the Middle 
East.
    However, helicopter incidents are the third-leading cause of 
fatalities in the Iraq War. In Afghanistan, in 2008 helicopter-related 
losses was the number 1 cause of deaths with direct fire being the 
second cause and IED attacks as third. Weather-related issues, 
disorienting brownout conditions, engine failure, wire strikes and 
flying into terrain of which the pilot was unaware accounts for 80 
percent of Iraq and
Afghanistan helicopter losses. Environmental conditions affect every 
facet of rotary wing operations. However, many of these losses can be 
mitigated with various new technologies, glass cockpit, and other 
capabilities to give the pilot the necessary tools.
    My question is how is the Army moving to encompassing these new 
instruments and capabilities to provide the war fighter with the 
necessary tools to mitigate many of these causes of helicopter 
incidents?
    General Lennox. Every aircraft currently under procurement has a 
fully modernized cockpit which includes flight symbology for all modes 
of flight, moving maps and enhanced flight controls improving 
controllability.
    The Army is demonstrating significant improvement in the most 
damaging class of accidents attributed to Degraded Visual Environment 
(DVE). This improvement may be attributed to the ongoing aircraft 
modernization investment, however, DVE remains a significant factor in 
the majority of non-hostile accidents. Despite noted improvements, the 
Army continues to evaluate potential systems to enhance the pilot's 
ability to maintain situational awareness when visual references are 
lost. In addition, we are seeking focused solutions including active 
radar penetrating sensors to ``see through'' brownout in the non-
modernized fleet which may also supplement our modernized fleet's 
capability. As technology improves the Army will continue to develop 
the right mix of mission planning systems, symbology, flight controls, 
displays and sensors to turn DVE from a hazard to a tactical advantage 
on the battlefield.
    Mrs. Roby. In working with the bases in my state, I understand the 
Army has a goal to have a joint multi-role aircraft for rotary wing 
transport on the books by 2030. The concern is that emphasis has been 
placed on modernizing our current rotary wing fleet and we may have 
lost sight on moving to a new platform. Current platforms are going 
limited even with modernization in several areas that we must move 
forward including: need crafts to go faster than 200 knots, reducing 
logistic footprint and reduce fuel consumption. With all of the 
concerns of what the action of Joint Select Committee on Deficit 
Reduction will have on DOD appropriations, what will the possible 
reduction in appropriations do in impacting that deadline?
    General Phillips. Reductions in appropriations for the Department 
of Defense could delay the development of technologies which could be 
applicable to the Joint Multi-Role Aircraft (JMR). Stable funding is 
key to developing and maturing these required technologies.
    The Army fully intends to continue to pursue development of the JMR 
in an attempt to fill capability gaps that cannot be addressed now 
because current technologies are either infeasible or too immature. 
These capability gaps are in the areas of survivability, lethality, 
performance, maintainability, supportability, flexibility, and 
versatility. Development of the JMR will lead to common aircraft 
components that will be scalable in size and will provide a common 
aircraft architecture that will support mission-specific equipment 
packages to meet future vertical lift requirements.
    While the Army pursues the development of the JMR, it must also 
continue with modernization efforts on current platforms to ensure that 
Army aviation units are modular, capable, lethal, tailorable, and 
sustainable. These modernization efforts mitigate capability gaps until 
the JMR technologies mature.
    Mrs. Roby. I proudly represent the Second District of Alabama that 
has Fort Rucker-the home of the U.S. Army Aviation Center of 
Excellence. Last week, we had the privilege of Chairman McKeon visiting 
the base and to see the training that our rotary wing aviators go 
through and the great work that our soldiers are doing there. Our 
rotary wing war fighters have been key to our mission in the Middle 
East.
    However, helicopter incidents are the third-leading cause of 
fatalities in the Iraq War. In Afghanistan, in 2008 helicopter-related 
losses was the number 1 cause of deaths with direct fire being the 
second cause and IED attacks as third. Weather-related issues, 
disorienting brownout conditions, engine failure, wire strikes and 
flying into terrain of which the pilot was unaware accounts for 80 
percent of Iraq and Afghanistan helicopter losses. Environmental 
conditions affect every facet of rotary wing operations. However, many 
of these losses can be mitigated with various new technologies, glass 
cockpit, and other capabilities to give the pilot the necessary tools.
    My question is how is the Army moving to encompassing these new 
instruments and capabilities to provide the war fighter with the 
necessary tools to mitigate many of these causes of helicopter 
incidents?
    General Phillips. Every aircraft currently under procurement has a 
fully modernized cockpit which includes flight symbology for all modes 
of flight, moving maps and enhanced flight controls improving 
controllability.
    The Army is demonstrating significant improvement in the most 
damaging class of accidents attributed to Degraded Visual Environment 
(DVE). This improvement may be attributed to the ongoing aircraft 
modernization investment, however, DVE remains a significant factor in 
the majority of non-hostile accidents. Despite noted improvements, the 
Army continues to evaluate potential systems to enhance the pilot's 
ability to maintain situational awareness when visual references are 
lost. In addition, we are seeking focused solutions including active 
radar penetrating sensors to ``see through'' brownout in the non-
modernized fleet which may also supplement our modernized fleet's 
capability. As technology improves the Army will continue to develop 
the right mix of mission planning systems, symbology, flight controls, 
displays and sensors to turn DVE from a hazard to a tactical advantage 
on the battlefield.
    Mrs. Roby. My understanding is that the Army had been looking to 
have a new joint multi-role rotary wing aircraft by 2030. What are the 
plans of the Army in continuing to move forward with this development 
of a new platform? With current cuts and possible additional cuts due 
to the Budget Control Act, what possible impact can it have to the 2030 
timeframe?
    Ms. Martin. Based on our previous work, we know that the Army 
decided over the last few years to focus its attention and resources on 
upgrading and maintaining its current rotary wing aircraft fleet. There 
are several reasons for this decision. For example, that fleet was 
being used extensively in the ongoing war efforts. The Army also 
concluded that the current fleet would be sufficiently capable at least 
for the near- and mid-term. In addition, the Army concluded that 
developing a new generation of rotary wing aircraft would be a major 
effort with significant cost and technical risks. Nevertheless, the 
Army has recently released to industry a request for information on 
potential capabilities for a Joint Multi-Role helicopter. With the 
prospects for reductions in DOD and Army acquisition accounts, however, 
it is unclear at this time when a rotary wing aircraft development 
program will be started.
    Mrs. Roby. I proudly represent the Second District of Alabama that 
has Fort Rucker-the home of the U.S. Army Aviation Center of 
Excellence. Last week, we had the privilege of Chairman McKeon visiting 
the base and to see the training that our rotary wing aviators go 
through and the great work that our soldiers are doing there. Our 
rotary wing war fighters have been key to our mission in the Middle 
East.
    However, helicopter incidents are the third-leading cause of 
fatalities in the Iraq War. In Afghanistan, in 2008 helicopter-related 
losses was the number 1 cause of deaths with direct fire being the 
second cause and IED attacks as third. Weather-related issues, 
disorienting brownout conditions, engine failure, wire strikes and 
flying into terrain of which the pilot was unaware accounts for 80 
percent of Iraq and Afghanistan helicopter losses. Environmental 
conditions affect every facet of rotary wing operations. However, many 
of these losses can be mitigated with various new technologies, glass 
cockpit, and other capabilities to give the pilot the necessary tools.
    My question is how is the Army moving to encompassing these new 
instruments and capabilities to provide the war fighter with the 
necessary tools to mitigate many of these causes of helicopter 
incidents?
    Ms. Martin. We are aware of the Army's attempts to address some of 
its issues with operating helicopters in the Middle East through the 
Joint Urgent Operational Needs/rapid acquisition process, but we do not 
know the status or results of the Army efforts.
    Mrs. Roby. In working with the bases in my state, I understand the 
Army has a goal to have a joint multi-role aircraft for rotary wing 
transport on the books by 2030. The concern is that emphasis has been 
placed on modernizing our current rotary wing fleet and we may have 
lost sight on moving to a new platform. Current platforms are going 
limited even with modernization in several areas that we must move 
forward including: need crafts to go faster than 200 knots, reducing 
logistic footprint and reduce fuel consumption. With all of the 
concerns of what the action of Joint Select Committee on Deficit 
Reduction will have on DOD appropriations, what will the possible 
reduction in appropriations do in impacting that deadline?
    Ms. Martin. Based on our previous work, we know that the Army 
decided over the last few years to focus its attention and resources on 
upgrading and maintaining its current rotary wing aircraft fleet. There 
are several reasons for this decision. For example, that fleet was 
being used extensively in the ongoing war efforts. The Army also 
concluded that the current fleet would be sufficiently capable at least 
for the near- and mid-term. In addition, the Army concluded that 
developing a new generation of rotary wing aircraft would be a major 
effort with significant cost and technical risks. Nevertheless, the 
Army has recently released to industry a request for information on 
potential capabilities for a Joint Multi-Role helicopter. With the 
prospects for reductions in DOD and Army acquisition accounts, however, 
it is unclear at this time when a rotary wing aircraft development 
program will be started.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. OWENS

    Mr. Owens. I understand there has been some confusion as to who 
will maintain control over the tactical ISR requirements and 
capabilities for EMARSS, and about the future of the EMARSS program 
itself. What is the Army's strategy going forward for EMARSS? Can you 
provide similar analysis on the strategy for the Joint Air-to-Ground 
Missile (JAGM) Program?
    General Lennox. The Army is currently executing the Enhanced Medium 
Altitude Reconnaissance and Surveillance System (EMARSS) Program to 
build four Engineering and Manufacturing Development (EMD) aircraft, 
and is on track to deliver these aircraft by December 2012. The Army 
will conduct developmental and operational testing in support of a 
Fiscal Year 2013 Milestone C decision. The Army's acquisition objective 
at Milestone B was 36 aircraft.
    Concurrently, the Army has placed the EMARSS program strategy under 
review. The Army is taking a serious look at EMARSS and similar 
capabilities, such as the Air Force's Liberty Project and the Army's 
Medium Altitude Reconnaissance and Surveillance System. This review is 
a coordinated effort with the Air Force to identify potential areas of 
joint efficiencies, while continuing to provide the best possible 
tactical aerial intelligence support to the Soldier on the ground. 
Included in this strategy review are discussions on service oversight 
and required quantities of aircraft across the services.
    At this time, there are no Department of Defense (DOD) decisions 
transferring or terminating the EMARSS Program, and it is still a 
subject for program review. An Inter-service transfer of any of these 
programs is one of many courses of action being considered. As the DOD 
faces fiscal constraints, the Army is exploring joint interdependent 
options to field the right mixture of aerial intelligence systems.
    The Army intends to provide candid program updates as the EMARSS 
strategy becomes more refined in the coming months.
    Considering the JAGM strategy the Army is following a Three-Phased 
Acquisition Approach:
    1.) Technology Development (TD) Phase consisted of two contractors 
being awarded fixed-price incentive firm (FPIF) contracts competing 
over a 27-month period through Preliminary Design Review (PDR). Both 
contractors successfully completed this phase and their Engineering and 
Manufacturing Development (EMD) proposals are currently being reviewed 
in the Source Selection Evaluation Board (SSEB) process. One contractor 
team will be down-selected at Milestone B and awarded a 4-year EMD 
Contract.
    Mr. Owens. What is the strategy or plan to provide the Army with a 
modern Armed Aerial Scout aircraft to replace the old OH-58? I would be 
interested to see your analysis on the cost/benefit implications for 
continually upgrading existing aircraft as opposed to fielding a new 
platform.
    General Lennox. The strategy or plan to replace the OH-58 has not 
been fully determined. An Analysis of Alternatives (AoA) is currently 
being conducted to analyze the question of whether to continue to 
upgrade the OH-58 or to develop a more capable platform. Cancellation 
of both the RAH66 Comanche Helicopter in 2004 and the Armed 
Reconnaissance Helicopter (ARH) in 2008 required that the Army pursue a 
two-fold strategy to address the Armed Aerial Scout (AAS) capability.
    First, the current OH-58D Kiowa Warrior (KW) fleet needed various 
upgrades to close existing obsolescence, safety, and weight issues 
experienced during combat operations in Iraq and Afghanistan through 
the Cockpit and Sensor Upgrade Program (CASUP). CASUP is the 
acquisition program that will upgrade the OH-58 aircraft. First Unit 
Equipped (FUE) is slated for FY16 with a scheduled completion by FY21.
    Secondly, an Analysis of Alternatives (AoA) was needed to address 
capability requirements for the AAS and to recommend solutions to 
either replace or upgrade the KW. The Training and Doctrine Command 
Analysis Center (TRAC) at Fort Leavenworth was tasked to perform the 
AoA and to specifically research the costs/benefits of investing in 
future upgrades to the OH-58F versus a new start program. Those results 
will be published with the release of the AoA. Initial findings briefed 
by TRAC in May 2011 stated that a new start program would provide 
performance improvements, but at a significantly higher cost. A program 
that offered a Commercial Off The Shelf (COTS) or Government Off The 
Shelf (GOTS) solution could potentially provide an affordable aircraft 
with trades in performance and schedule.
    The AoA was initially planned for completion in April 2011, but the 
Army requested an extension of the AoA with a flight demonstration in 
order to consider recent industry improvements in technology and 
aircraft performance. This information must be considered in order for 
the Army to make the most informed decision it can regarding the 
benefits of staying with the OH-58 or moving to another more capable 
platform. The data gained from the demonstration will provide 
information necessary to enable the Army to decide to either retain the 
OH-58F and invest in future improvements or to start a new AAS program.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
